           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     The Social Security Administration’s
       Controls over the Assignment of
      Nonwork Social Security Numbers

    August 2006         A-04-06-16052




 AUDIT REPORT
                                  Mission
By conducting independent and objective audits, evaluations and
investigations, we inspire public confidence in the integrity and security of
SSA’s programs and operations and protect them against fraud, waste and
abuse. We provide timely, useful and reliable information and advice to
Administration officials, Congress and the public.

                                 Authority
The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to agency programs
    and operations.
   Keep the agency head and the Congress fully and currently informed
    of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                   Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud,
waste and abuse. We commit to integrity and excellence by supporting an
environment that provides a valuable public service while encouraging
employee development and retention and fostering diversity and
innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   August 18, 2006                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Controls over the Assignment of Nonwork Social
        Security Numbers (A-04-06-16052)


        OBJECTIVE
        We performed this review to determine whether the Social Security Administration
        (SSA) assigned nonwork Social Security numbers (SSN) to eligible individuals in
        accordance with Agency policy.

        BACKGROUND

        SSA assigns nonwork SSNs to noncitizens who do not have permission from the
        Department of Homeland Security (DHS) to work in the United States. In 2003, SSA
        ended the practice of assigning nonwork SSNs to noncitizens unless the individual has
        a valid reason for the number. 1 Specifically, the Agency’s revised policy only allows
        nonwork SSNs to be assigned when (1) a Federal statute or regulation requires that
        noncitizens provide an SSN to receive a federally funded benefit or service to which
        they have established an entitlement or (2) a State or local law requires that noncitizens
        who are legally in the United States provide an SSN to receive public assistance
        benefits to which they are entitled and for which all other requirements have been met.
        SSA assigns these individuals SSN cards with a “not valid for employment” annotation. 2

        When a noncitizen applies for a nonwork SSN, he or she must complete, sign, and
        submit a Form SS-5, Application for a Social Security Card. 3 While at the SSA field
        office or Foreign Service Post, 4 the applicant must provide evidence of age as well as

        1
            68 Fed. Reg. 55304 (Sept. 25, 2003).
        2
            20 C.F.R. 422.104.
        3
            20 C.F.R. 422.103.
        4
         When a noncitizen resides outside the United States and requests an SSN at a Foreign Service Post,
        evidence of immigration status does not need to be provided. SSA Program Operations Manual System
        (POMS), RM 00203.510 A.2.a.
Page 2 - The Commissioner


identification and evidence of current immigration status. 5 The applicant must also
present a letter from the appropriate Government entity explaining the need for the
SSN. 6 The letter must specifically identify the noncitizen, the nonwork reason for which
an SSN is required, the relevant statute or regulations requiring the SSN as a condition
to receive the benefit or service, and the name and telephone number of an official who
can verify the information. Further, the letter should state the noncitizen meets all the
requirements to receive the benefit/service, but an SSN is required to complete the
process. SSA field office staff determines the validity of supporting evidentiary
documents and records the required SSN application information in the Modernized
Enumeration System (MES). If the information passes MES edits, an SSN is assigned,
a Social Security card is issued, and a record is established in SSA’s information
systems. Appendix B provides a detailed description of how SSA assigns SSNs to
noncitizens.

SSA has significantly decreased the number of nonwork SSNs it assigns to noncitizens.
In Fiscal Year (FY) 1995, SSA assigned nearly 550,000 nonwork SSNs. By FY 2005,
SSA had reduced the number of nonwork SSNs it assigned to less than 15,000. We
attribute this reduction to SSA’s consistent efforts to educate field office staff on the
importance of issuing nonwork SSNs only to qualified individuals. Appendix C details
the number of nonwork SSNs assigned for FYs 1995 through 2005.

SCOPE AND METHODOLOGY
We reviewed a random sample of 200 nonwork SSNs. We selected our sample from a
universe of 7,688 nonwork SSNs assigned during the period January 1 through
June 30, 2005. Our audit tested more than one control attribute for each nonwork SSN.
Based on information we obtained from MES, we determined whether SSA documented
a nonwork reason, as prescribed by SSA policy and, if so, whether the reason was
valid. Finally, we determined whether SSA recorded required immigration information in
MES when applicable. As a result, some of the assigned nonwork SSNs have more
than one reportable issue and are included as audit findings in more than one section of
the report.

SSA field offices in Florida processed 107 (53.5 percent) of the 200 nonwork SSNs we
randomly sampled. Generally, these nonwork SSNs were assigned because the
applicants needed them to receive a State-administered entitlement. Given the high
percentage of nonwork SSNs processed in Florida, we expanded our scope to
determine whether the State of Florida actually paid entitlements to these nonwork SSN
recipients. Further information regarding our scope and methodology and sampling
methodology and results are in Appendices D and E, respectively.




5
    20 C.F.R. 422.107.
6
    POMS, RM 00203.510 A.2.b.
Page 3 - The Commissioner


RESULTS OF REVIEW
Generally, SSA policies and procedures ensured that nonwork SSNs were assigned for
valid nonwork reasons. However, SSA assigned 45 (22.5 percent) of the 200 nonwork
SSNs we reviewed when at least 1 technical processing error existed. This included
one nonwork SSN that was assigned against SSA policy so a noncitizen could serve as
a representative payee. 7

The most common occurrences of noncompliance were staff’s failure to properly
document (1) a valid nonwork reason for the SSN and (2) required immigration
information. Based on the compliance errors we identified, we estimate approximately
1,730 nonwork SSNs assigned from January 1 through June 30, 2005 did not fully
comply with SSA’s policy and procedures. Table 1 details the number of nonwork SSNs
by type of compliance error.

                     Table 1: Nonwork SSNs with Compliance Errors
                        Type of Compliance Error                                      Number of
                                                                                     Occurrences
    Valid Nonwork Reason Not Properly Documented                                              28
    Required Immigration Information Not Documented                                           20
    Verification of Immigration Status not Completed Accurately                                 2
    Invalid Nonwork Reason                                                                      1
    Total Number of Compliance Errors Identified                                              51
    Total Number of Sampled Nonwork SSNs with at Least One Compliance Error                   45
    Percentage of Sampled Nonwork SSNs with at Least One Compliance Error                    22.5

Of the 200 nonwork SSNs we reviewed, Florida field offices assigned 102 (51 percent)
SSNs to facilitate the receipt of federally funded State benefits for which the individual
established an entitlement. 8 However, at the time of our review, 32 of the nonwork
numberholders had not received the federally funded, State-administered benefit for
which they requested the nonwork SSN. We believe SSA could improve controls over
the assignment of nonwork SSNs by verifying the authenticity—with the issuing
source—of letters claiming the need for a nonwork SSN to obtain applicable benefits.

Despite the technical errors we identified, we are encouraged by SSA’s improved
controls and procedures for assigning nonwork SSNs. In addition to significant policy
changes, SSA implemented system enhancements in FY 2005 that we believe will
further prevent the improper assignment of nonwork SSNs.


7
  When individuals receiving SSA benefits cannot manage or direct the management of their finances
because of their youth or mental and/or physical impairments, SSA has the authority to appoint a
representative payee to receive and manage the SSA benefits. 20 C.F.R. Part 404 Subpart U, and
Part 416 Subpart F.
8
  Florida field offices assigned 107 of the nonwork SSNs in our sample. However, SSA did not document
a valid nonwork reason for five of these nonwork SSNs. Therefore, we could not determine whether
these five individuals obtained an SSN to receive a State-administered benefit.
Page 4 - The Commissioner


PERSONNEL DID NOT ALWAYS COMPLY WITH PROCEDURES WHEN
PROCESSING NONWORK SSN APPLICATIONS

When processing 45 (22.5 percent) of the 200 nonwork SSNs we reviewed, SSA field
offices did not always comply with SSA policies and procedures. In most cases, field
office personnel failed to record a valid reason for a nonwork SSN and required
immigration information. Because our audit tested more than one control attribute for
each nonwork SSN, some of the assigned nonwork SSNs have more than one
reportable issue and are included as audit findings in more than one section of the
report. Based on the compliance errors we identified, we estimate 1,730 nonwork SSNs
assigned from January 1 through June 30, 2005 did not fully comply with SSA’s policy
and procedures.

Nonwork Reasons Were Not Always Properly Documented

For 28 (14 percent) of the 200 sampled nonwork SSNs, SSA field office staff either did
not document a reason for assigning the SSN or documented the wrong reason. SSA
staff did not document a reason for assigning 27 of the nonwork SSNs. However, we
determined that SSA had established a Title II record for 11 of these individuals.
Although the reason was not documented when the SSN was processed, the individual
ostensibly qualified for Title II benefits and required a nonwork SSN to complete the
application process. In the one additional case, SSA documented that the nonwork
SSN applicant was entitled to Title II benefits. However, we did not find evidence the
individual applied for the benefits. We were unable to determine why SSA assigned the
remaining 16 nonwork SSNs.

SSA field office staff who process nonwork SSN applications are required to document
a valid nonwork reason based on a review of the evidence submitted by the individual.
SSA staff should only approve a nonwork SSN application when the noncitizen can
provide documentation substantiating this reason.

Required Immigration Information Was Not Always Documented Correctly

SSA field office staff did not record an alien/admission number in MES for
20 (10 percent) of the 200 nonwork SSN applications we reviewed. 9 Also, in two cases
(1 percent), according to DHS’ Systematic Alien Verification for Entitlements (SAVE)
program, the alien registration numbers recorded in MES were not associated with the
SSN applicants. Specifically, the last names on the nonwork SSN records matched
what was recorded in SAVE; however, the first names and the dates of birth recorded
did not match those of the nonwork SSN applicants. DHS assigns an alien/admission
number to noncitizens when they enter the United States, and SSA uses this number to

9
 Because some Title II beneficiaries (for example, survivors residing in different countries) may be
entitled to benefits without entering the United States—and would not have an alien or admission
number—we did not count as an error any nonwork SSN applicant receiving Title II benefits who resided
outside the United States (or was not in the United States legally) for whom SSA personnel did not record
immigration information.
Page 5 - The Commissioner


confirm the authenticity of immigration documents presented by the SSN applicant.
SSA policy requires that field office staff enter the applicant’s alien/admission number
into MES when processing a nonwork SSN application—unless an exception was
allowed for individuals receiving Title II benefits who did not reside in the United States
or were not in the country legally when they applied for Title II benefits and received
their nonwork SSN.

Invalid Nonwork Reason

For 1 of the 200 sampled nonwork SSNs, SSA assigned the number for an invalid
reason. SSA assigned the nonwork SSN so a noncitizen could serve as a
representative payee for an individual receiving Title II benefits. SSA policy specifically
states that SSA should not assign an SSN to a representative payee who would
otherwise not be eligible for an SSN. 10

SSA did not document the nonwork reason for 27 of the nonwork SSNs we tested. For
11 of these nonwork SSNs, we determined that SSA had a Title II benefit record, which
presumably indicates the SSN was assigned for a valid reason. However, because the
16 remaining nonwork SSNs lacked any evidence of a nonwork reason, we could not
determine whether the assignment of a nonwork SSN was appropriate.

NONWORK SSNs ASSIGNED TO FACILITATE PAYMENT OF
STATE-ADMINISTERED BENEFITS

Some noncitizens who are eligible to receive federally funded, State-administered
benefits require a nonwork SSN to complete the entitlement process. SSA assigns
nonwork SSNs to noncitizens when documentation proves entitlement to a State
benefit. Of the 200 nonwork SSNs we reviewed, SSA field offices in Florida processed
102 (51 percent) for which the applicants provided evidence they were entitled to a
federally funded, State-administered benefit. However, of these 102 individuals,
Florida’s Department of Children and Families (DCF) stated that 32 never completed
the benefit application process and received payment.

In Florida, DCF issues a letter to certain noncitizens explaining that they qualify for a
State benefit but need an SSN to complete the entitlement process. The “benefit
eligibility letter” identifies benefits the individual is entitled to and requests that SSA
process an SSN. This letter is the basis for SSA to assign a nonwork SSN—if the
applicant’s identity and immigration status are confirmed. We contacted the Florida
DCF to determine whether benefits were paid to these 102 individuals. The Florida
DCF reported that 32 of these individuals did not receive DCF benefits. Accordingly,
although SSA assigned these 32 nonwork SSNs so individuals could obtain State-
administered benefits, it appears the SSNs were not used for that purpose. While there




10
     POMS, RM 00203.510 C.10.
Page 6 - The Commissioner


may be legitimate reasons these individuals did not obtain the DCF benefits, 11 we
remain concerned that vulnerabilities exist within the process that may allow a
noncitizen to improperly obtain a nonwork SSN with a counterfeit benefit eligibility letter.

According to policy, field office staff is only required to verify the authenticity of a benefit
eligibility letter when it appears questionable. However, we believe SSA could improve
the controls over the issuance of nonwork SSNs by verifying the authenticity of all
benefit eligibility referral letters with the issuing source.

SS-5 ASSISTANT IMPROVES CONTROLS OVER SSN ASSIGNMENT

In March 2005, midway through our audit period, SSA implemented the SS-5 Assistant
to improve controls over processing SSN applications. The SS-5 Assistant, a software
program that interfaces with MES, assists field office personnel in gathering and
recording required SSN application information. According to SSA officials, the SS-5
Assistant prompts field office staff to complete all required data fields and, unlike the
traditional enumeration process, will not process the SSN application unless the
required information is input. We did not evaluate the improved controls expected from
implementation of the SS-5 Assistant. Accordingly, we cannot opine as to whether the
SS-5 Assistant will eliminate the technical compliance errors identified in this report.
However, because the SS-5 Assistant is intended to correct these types of errors, we
will not make a recommendation in this report to address these issues. Our 2007 audit
plan includes a review of the SS-5 Assistant. As part of this review, we will determine
whether the improved controls have eliminated field office processing errors.

While the SS-5 Assistant is expected to improve the accuracy and completeness of
processing nonwork SSNs, SSA can only fully use these benefits if personnel
completely embrace the change. Revised policy requires that field office staff use the
SS-5 Assistant when processing nonwork SSN applications. However, we determined
field office staff occasionally bypassed the SS-5 Assistant. When SSA personnel do not
fully comply with all policies and procedures for processing noncitizen SSN applications,
the Agency increases its risk of improper SSN assignment. SSA implemented integrity
reviews to monitor and reduce the frequency of SSN applications processed outside the
SS-5 Assistant. For example, integrity review data from SSA’s Region IV indicated that,
from August 2005 to February 2006, the monthly percentage of SSNs processed
through the SS-5 Assistant increased from 91 to 98.




11
  Noncitizens assigned a nonwork SSN to complete a State benefit entitlement process may not always
receive the State benefit because they left the State, were subsequently deemed ineligible, or lost U.S.
residency status.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATION
We recognize SSA’s efforts cannot fully eliminate the potential that noncitizens may
inappropriately acquire and misuse nonwork SSNs. Nonetheless, we believe SSA has
a stewardship responsibility to ensure personnel comply with all policies and procedures
when assigning these important numbers. We believe SSA would benefit by taking
additional steps to strengthen SSN integrity and reduce its risk of exposure to improper
SSN assignment. Accordingly we recommend SSA:

1. Consider implementing a requirement that field office personnel verify the
   authenticity of all State benefit eligibility referral letters presented with nonwork SSN
   applications.

AGENCY COMMENTS

SSA generally agreed with our recommendation stating it will work with the State of
Florida to establish procedures for verifying the authenticity of State benefit eligibility
letters. SSA further explained it will monitor the newly implemented verification
procedures in Florida to determine whether a similar policy should be implemented
nationally.

Also, the Agency expressed a concern that our characterization of the 32 nonwork
SSNs assigned to receive Florida State benefits—but for which the numberholders did
not receive these benefits—was misleading. The Agency stated that, as written, the
report implied the individuals requested and were granted these nonwork SSNs for
another purpose. The Agency stated that the report should include information on the
most common reasons why applicants did not ultimately receive the State benefits,
which are they left the State, lost U.S. residency, or there was a change in circumstance
which caused him/her to become ineligible for the benefit. The Agency’s comments are
included in Appendix F.

OIG RESPONSE
We believe SSA’s planned corrective actions adequately addressed our
recommendation. Also, we considered the concern SSA expressed in its technical
comments and revised our final report as necessary to address the issue.




                                                   S
                                                   Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – How the Social Security Administration Assigns Social Security
             Numbers to Noncitizens

APPENDIX C – Nonwork Social Security Numbers Assigned by Fiscal Year

APPENDIX D – Scope and Methodology

APPENDIX E – Sampling Methodology and Results

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
DCF    Department of Children and Families
DHS    Department of Homeland Security
FY     Fiscal Year
OIG    Office of the Inspector General
MES    Modernized Enumeration System
POMS   Program Operations Manual System
SAVE   Systematic Alien Verification for Entitlements
SSA    Social Security Administration
SSN    Social Security Number
                                                                      Appendix B

How the Social Security Administration Assigns
Social Security Numbers to Noncitizens
When a noncitizen applies for a Social Security number (SSN), he or she must complete,
sign and submit a Form SS-5, Application for a Social Security Card, to the Social
Security Administration (SSA). The noncitizen must also provide acceptable
documentary evidence of (1) age, (2) identity, and (3) work-authorized immigration status
and/or a valid nonwork reason. SSA personnel verify documents through (1) visual
inspection, including the use of a black light where appropriate, and (2) verification with
the Department of Homeland Security (DHS), either on-line or manually. If documents
do not appear valid, SSA personnel send a Form G-845, Document Verification Request,
along with photocopies of the applicant-provided documents, to DHS. If documents
appear valid, SSA personnel query DHS’ Systematic Alien Verification for Entitlements
(SAVE) program to verify the immigration and work status of noncitizens. If SAVE
information is not available, SSA personnel send Form G-845 to DHS for verification.

SSA personnel enter SSN application information into SSA’s Modernized Enumeration
System (MES) via a software package known as the SS-5 Assistant. After determining
the validity of supporting evidentiary documents, SSA personnel clear the application in
MES. Once certified and cleared, MES performs numerous automated edits to validate
certain applicant information. If the application passes these edits, SSA systems assign
an SSN, issue an SSN card, and establish a record in SSA’s information systems.
                                                            Appendix C

Nonwork Social Security Numbers Assigned by
Fiscal Year

           600,000
                                                                 FY 1995- 547,792
                                                                 FY 1996- 325,629
           500,000
                                                                 FY 1997- 156,124
                                                                 FY 1998- 132,865
           400,000
N um ber




                                                                 FY 1999- 96,748
                                                                 FY 2000- 64,575
           300,000
                                                                 FY 2001- 72,224
                                                                 FY 2002- 25,169
           200,000
                                                                 FY 2003- 19,672

           100,000                                               FY 2004- 20,786
                                                                 FY 2005- 14,686

                0
                     1995   1997   1999     2001   2003   2005
                                    Fiscal Year
                                                                      Appendix D

Scope and Methodology
We reviewed a random sample of 200 nonwork Social Security numbers (SSN). We
selected our sample from a universe of 7,688 nonwork SSNs assigned from
January 1 through June 30, 2005. Based on information we obtained from the
Modernized Enumeration System (MES), we determined whether Social Security
Administration (SSA) personnel documented a nonwork reason, as prescribed by SSA
policy. If a reason was documented, we determined whether SSA assigned a nonwork
SSN based on a valid reason, as defined by SSA policy. Finally, we determined
whether SSA recorded required immigration information in MES when applicable. As a
result, some of the assigned nonwork SSNs have more than one reportable issue and
are included as audit findings in more than one section of the report.

Also, SSA’s Florida field offices assigned 107 (53.5 percent) of our 200 randomly
sampled nonwork SSNs. Of these 107 nonwork SSNs, 102 were assigned because the
applicants alleged entitlement to a federally funded, State-administered benefit. We
expanded our scope on these SSNs to determine whether the entitlement was actually
paid.

We also:

•   Reviewed applicable laws, regulations, and policies and procedures.

•   Interviewed SSA personnel in Headquarters and the Area Directors Office in Miami,
    Florida.

•   We visited SSA field offices in Little Havana and Hialeah, Florida, to obtain an
    understanding on how field offices process nonwork SSN’s and determine why a
    high percentage of nonwork SSNs were from these offices.

•   Queried and reviewed information justifying the reason for the nonwork SSN for
    sample items form SSA’s MES.

•   Examined SSA’s NUMIDENT file records for processed applications to determine
    whether the citizenship and evidence codes properly reflected the applicant’s status
    in accordance with the evidence descriptions documented in MES.

•   For applications with evidence descriptions that provided alien registration numbers,
    we queried the Department of Homeland Security’s Systematic Alien Verification for
    Entitlement program to verify a noncitizen’s purported status.

•   Queried and reviewed information from SSA’s Master Beneficiary Records and
    Master Earnings File.

                                           D-1
•   Consulted with the State of Florida’s Department of Children and Families (DCF) to
    determine whether individuals in Florida who were assigned a nonwork SSN for
    State DCF benefits actually received the benefit.

We conducted field work from October 2005 through March 2006 at SSA’s Regional
Office in Atlanta, Georgia, and at SSA field offices in Little Havana and Hialeah, Florida.
During our review, we relied on data extracted from SSA’s MES. We determined the
data were sufficiently reliable to satisfy our audit objectives. However, we could not
determine the reliability of Florida DCF data provided for our audit. As a result, any
conclusions made in this report regarding information provided by Florida DCF are
attributed to that Agency. Our tests of internal controls were limited to gaining an
understanding of the laws, regulations and polices that govern the assignment of
nonwork SSNs and performing the tests identified above. We conducted our audit in
accordance with generally accepted government auditing standards.




                                            D-2
                                                                    Appendix E

Sampling Methodology and Results
Sampling Methodology

We reviewed a random sample of 200 nonwork Social Security numbers (SSN). We
selected our sample from a universe of 7,688 nonwork SSNs assigned from January 1,
2005 through June 30, 2005. Our audit tested more than one control attribute for each
nonwork SSN. Based on information obtained from the Modernized Enumeration
System (MES), we determined whether the Social Security Administration (SSA) (1)
documented a nonwork reason as prescribed by SSA policy; (2) if documented,
assigned the nonwork SSN based on a valid reason as defined by SSA policy; and (3)
when applicable, recorded required immigration information in MES. As a result, some
of the assigned nonwork SSNs have more than one reportable issue and are included
as audit findings in more than one section of the report.

Results – Nonwork SSNs with at Least One Compliance Error

                    Nonwork SSNs With At Least One Compliance Error
                             Attribute Appraisal Projections
                                                                         Nonwork
 Population and Sample Data
                                                                          SSNs
 Total Population                                                              7,688
 Sample Size                                                                     200
 Nonwork SSNs with at Least One Compliance Error                                  45

 Projection to Population                                               Projections
 Lower Limit                                                                   1,366
 Point Estimate                                                                1,730
 Upper Limit                                                                   2,140


We made all projections at the 90-percent confidence level.
                  Appendix F

Agency Comments
                                       SOCIAL SECURITY
Date:      August 4, 2006                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Social Security Administration's Controls
           Over the Assignment of Nonwork Social Security Numbers" (A-04-06-16052) --
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendation are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.

           Attachment:
           SSA Response




                                                     F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
THE ASSIGNMENT OF NONWORK SOCIAL SECURITY NUMBERS” (A-04-06-
16052)

Thank you for the opportunity to review and comment on the draft report. We generally
agree with OIG’s findings and the intent of the recommendation.

With regard to the 32 Social Security numbers (SSN) processed in Florida that were
assigned so that the individuals could receive a State benefit, we believe the report is
misleading when it states that the nonwork SSNs may have been obtained for a purpose
other than the State benefit because the individuals did not complete the State
application. The results of the review show that the SSNs were assigned with the
eligibility of the State benefit as the sole basis upon which the SSN was issued. As
currently written, the report implies that the individual(s) requested and was granted an
SSN for another purpose. We believe the report should include information on the most
common reasons why applicants did not ultimately receive the benefit, which are the
applicant left the State, lost U.S. residency, or there was a change in circumstance which
caused him/her to become ineligible for the benefit.

Please find below our response to the recommendation.

Recommendation 1

The Social Security Administration (SSA) should consider implementing a requirement
that field office personnel verify the authenticity of all benefit entitlement letters
presented with nonwork SSN applications with the issuing source.

Response

We partially agree. We have considered implementing a third party verification system
which would be consistent with the other verification systems used in the enumeration
process. However, given the relatively small number of transactions nationwide, and the
concentrated number in one State (more than 50 percent in Florida); we do not think that
a formal process to verify all referrals is warranted at this time. Current POMS
procedure in RM 00203.510 2.B. requires that referral letters contain “the name and
telephone number of an official to contact so that the information provided may be
verified.” This information is sufficient to enable SSA employees to verify as needed the
referral letters for the few nonwork SSN applicants in other States. For the State of
Florida, we will, by December 31, 2006, work with the State to establish a procedure to
verify State-issued referral letters. Once a process can be agreed upon, and we gain
experience with it, we may reconsider implementing a nationwide policy for verifying the
authenticity of referral letters issued by all States.




                                            F-2
                                                                      Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Southern Audit Division, (205) 801-1605

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Phillip Krieger, Auditor

   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-06-16052.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
